JooupgmeTproyueig

STUNT [e99" TSN

Supreme Court Litigation Clinic

Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724-1900

Fax 650 723-4426

December 30, 2019

Via FedEx

Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Michigan v. Beck, No. 19-564

Dear Mr. Harris,

Enclosed for filing in the above referenced matter, please find:
An original plus ten (10) copies of respondent’s Motion to Proceed Jn
Forma Pauperis. This motion is filed pursuant to Rule 39.1, and is
accompanied by a Certificate of Service;
An original plus ten (10) copies of respondent’s Brief in Opposition,
prepared pursuant to Rule 33.2, as well as a separate Certificate of
Service; and
Additional face-pages of the motion and brief in opposition, which I
kindly request that you file-stamp and return to my office in the self-

addressed, stamped envelope provided.

Please do not hesitate to contact me at (650) 724-7081 if you have any
questions regarding these filings.

Thank you very much for your time and assistance in this matter.

truly yours,

   
 
   

ffrey L. Fisher
Counsel for Respondent

ce: All Counsel

Community Law + Criminal Defense + Cyberlaw + Environmental Law
Immigrants’ Rights + International Human Rights + Organizations and Transactions
Supreme Court Litigation + Youth and Education Law Project
